No. ______
In the

Supreme Court of the United States
__________________

M.W. WATERMARK, LLC AND
MICHAEL GETHIN, INDIVIDUALLY,
Petitioners,
v.
EVOQUA WATER TECHNOLOGIES, LLC,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
G. Thomas Williams
Counsel of Record
McGarry Bair PC
45 Ottawa Ave. SW, Suite 700
Grand Rapids, MI 49503
Tel: 616-742-3500
Fax: 616-742-1010
gtw@mcgarrybair.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
This Court says that “the scope of a consent decree
must be discerned within its four corners, and not by
reference to what might satisfy the purposes of one of
the parties to it.” U.S. v. Armour, 402 U.S. 673, 682
(1971). This Court also says that “a well settled line of
authority from this Court establishes that a consent
decree is not enforceable directly or in collateral
proceedings by those who are not parties to it, even
though they were intended to be benefited by it.” Blue
Chip Stamps v. Manor Drug Stores, 421 U.S. 723, 750
(1975), citing, Armour, 402 U.S. 673, and Buckeye Co.
v. Hocking Valley Co., 269 U.S. 42 (1925).
The Sixth Circuit held that a consent decree issued
by the U.S. District Court for the Western District of
Michigan providing injunctive relief to a Plaintiff
against Defendants and their successors and assigns
could be enforced by a non-party assignee pursuant to
Michigan state law allowing for free assignment of
contracts. This conflicts with the holding of Armour
requiring consent decrees be interpreted within their
“four corners,” and also conflicts with the holding of
Blue Chip Stamps, preventing enforcement of a consent
decree by those who are not parties to it.
The questions presented are:
1. Does a person or entity lack standing to enforce a
federal court’s consent decree that includes an
injunction if it was not a party to the original
consent decree?
2. Did the Sixth Circuit Court of Appeals commit
reversible error when it held a federal court may go

ii
outside of the four corners of a consent decree to
permit its assignment pursuant to state contract
law to allow a non-party to enforce its terms?

iii
PARTIES TO THE PROCEEDING
M.W. Watermark, L.L.C., a Michigan Limited
Liability Company, and Michael Gethin, its President
and a resident of the State of Michigan, are the
Petitioners here and were Defendants-Appellees below.
Evoqua Water Technologies LLC, a Delaware
Limited Liability Company, is Respondent here and
was Plaintiff-Appellant below.
CORPORATE DISCLOSURE STATEMENT
M.W. Watermark, L.L.C. is a privately held limited
liability company. It has no parent corporation and no
publicly held company owns 10% or more of its stock.

iv
RELATED PROCEEDINGS
• U.S. Filter/JWI, Inc. v. J-Parts, L.L.C. and Michael
Gethin, No. 03-cv-127, U.S. District Court for the
Western District of Michigan (final judgment and
permanent injunction entered Dec. 22, 2003)
(“Gethin I”).
• Evoqua Water Technologies LLC v. M.W.
Watermark, L.L.C. et al., No.16-cv-14, U.S. District
Court for the Western District of Michigan
(vacating order entered August 18, 2017; final
judgment entered Nov. 5, 2018) (“Gethin II”).
• Evoqua Water Technologies LLC v. M.W.
Watermark, L.L.C. et al., No.18-2397, U.S. Court of
Appeals for the Sixth Circuit (opinion issued and
judgment entered Oct. 7, 2019; petition for
rehearing denied Nov. 21, 2019; mandate issued
Dec. 3, 2019).
There are no additional proceedings in any court
that are directly related to this case.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 3
INTRODUCTION AND STATEMENT OF
THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The 2003 Consent Decree in Gethin I. . . . . . . 3
B. Factual Background and District Court
Proceedings in Gethin II . . . . . . . . . . . . . . . . . 4
C. Sixth Circuit Appellate Proceedings. . . . . . . . 8
REASONS FOR GRANTING THE PETITION . . . 11
I. The Sixth Circuit’s holding conflicts with this
Court’s precedents. . . . . . . . . . . . . . . . . . . . . . . . 11
A. The Sixth Circuit ignored this Court’s
precedent when it held there is an absence of
controlling federal law. . . . . . . . . . . . . . . . . . 14

vi
B. Armour and Blue Chip Stamps are
controlling federal law ignored by the Sixth
Circuit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
II. There is a split in the circuits . . . . . . . . . . . . . . 18
A. The Federal Circuit follows the Armour rule
and Blue Chip Stamps and has held that the
absence of language of “assignment” meant
that a consent decree was not freely
assignable . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
B. The Sixth Circuit followed Michigan contract
law and found that the absence of language
of “assignment” meant that a consent decree
was freely assignable. . . . . . . . . . . . . . . . . . . 21
C. The Ninth Circuit Created an “exception” to
Blue Chip Stamps permitting enforcement by
“intended” but not “incidental” third-party
beneficiaries. . . . . . . . . . . . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
APPENDIX
Appendix A Opinion and Concurring Opinion in
the United States Court of Appeals for
the Sixth Circuit
(October 7, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Opinion, Order, and Judgment in the
United States District Court, Western
District of Michigan, Southern
Division
(November 5, 2018). . . . . . . . . . . App. 54

vii
Appendix C Verdict Form in the United States
District Court, Western District of
Michigan, Southern Division
(April 12, 2018) . . . . . . . . . . . . . . App. 82
Appendix D Opinion and Order in the United
States District Court, Western District
of Michigan, Southern Division
(March 26, 2018) . . . . . . . . . . . . . App. 88
Appendix E Opinion and Order in the United
States District Court, Western District
of Michigan, Southern Division
(August 18, 2017) . . . . . . . . . . . App. 107
Appendix F Final Judgment Including Permanent
Injunction in the United States
District Court, Western District of
Michigan, Southern Division
(December 22, 2003) . . . . . . . . . App. 123
Appendix G Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(November 21, 2019) . . . . . . . . . App. 128

viii
TABLE OF AUTHORITIES
CASES
Aiken v. City of Memphis,
37 F.3d 1155 (6th Cir. 1994). . . . . . . . . . . 9, 15, 26
Beckett v. Air Line Pilots Ass’n,
995 F.2d 280 (D.C. Cir. 1993). . . . . . . . . . . . . . . 26
Berger v. Heckler,
771 F.2d 1556 (2d Cir. 1985) . . . . . . . . . . . . . . . 26
Bergman v. Mich. State Transp. Comm’n,
665 F.3d 681 (6th Cir. 2011). . . . . . . . . . . . . . . . 14
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975). . . . . . . . . . . . . . . . . . . passim
Buckeye Coal & Ry. Co. v. Hocking Valley Ry. Co.,
269 U.S. 42 (1925). . . . . . . . . . . . . . . 13, 15, 19, 23
Buckhannon Bd. & Care Home, Inc. v. W. Va. Dep’t
of Health & Human Res.,
532 U.S. 598 (2001). . . . . . . . . . . . . . . . . . . . . . . 13
FTC v. Enforma Natural Prods., Inc.,
362 F.3d 1204 (9th Cir. 2004). . . . . . . . . . . . . . . 12
Floyd v. Ortiz,
300 F.3d 1223 (10th Cir. 2002). . . . . . . . . . . 25, 26
Gates v. Shinn,
98 F.3d 463 (9th Cir. 1996). . . . . . . . . . . . . . . . . 12
Hook v. Ariz. Dep’t of Corr.,
972 F.2d 1012 (9th Cir. 1992). . . . . . . . . . . . 25, 26

ix
Huguley v. General Motors Corp.,
67 F.3d 129 (1995) . . . . . . . . . . . . . . . . . . . . . . . 23
In re Masters Mates & Pilots Pension Plan & IRAP
Litig.,
957 F.2d 1020 (2d Cir. 1992) . . . . . . . . . . . . . . . 12
Jawad A. Shah, M.D., PC v. State Farm Mut. Auto.
Ins. Co.,
920 N.W.2d 148 (Mich. Ct. App. 2018) . . 9, 15, 16
Limbright v. Hofmeister,
566 F.3d 672 (6th Cir. 2009). . . . . . . . . . . . . . . . 12
Mich. Chandelier Co. v. Morse,
297 N.W. 64 (Mich. 1941) . . . . . . . . . . . . . 9, 14, 22
Pure Country, Inc. v. Sigma Chi Fraternity,
312 F.3d 952 (8th Cir. 2002). . . . . . . . . . . . . . . . 25
Rasheed v. Chrysler Corp.,
517 N.W.2d 19 (Mich. 1994) . . . . . . . . . . . 9, 14, 22
Sault St. Marie v. Engler,
146 F.3d 367 (6th Cir. 1998). . . . . . . . . . . . . . 9, 14
Thatcher v. Kohl’s Department Stores, Inc.,
377 F.3d 1370 (Fed. Cir. 2005) . . . . . . . . 10, 20, 21
U.S. v. Armour & Co.,
402 U.S. 673 (1971). . . . . . . . . . . . . . . . . . . passim
U.S. v. FMC Corp.,
531 F.3d 813 (9th. Cir. 2008) . . . . . . . . . 24, 25, 26
U.S. v. ITT Continental Baking Co.,
420 U.S. 223 (1975). . . . . . . . . . . . . . 12, 13, 17, 18

x
United States v. Shoshone-Bannock Tribes (FMC
Corp.),
229 F.3d 1161 (9th Cir. 2000). . . . . . . . . . . . . . . 24
U.S. v. Swift & Co.,
286 U.S. 106 (1932). . . . . . . . . . . . . . . . . . . . . . . 12
Williams v. Vukovich,
720 F.2d 909 (6th Cir. 1983). . . . . . . . . . . . . 13, 14
CONSTITUTION
U.S. Constitution, Article III . . . . . . . . . . . . . . . . . . 13
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1338 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

1
PETITION FOR WRIT OF CERTIORARI
M.W. Watermark, L.L.C. (“Watermark”), a
Michigan Limited Liability Company, and Michael
Gethin, an individually-named party below and
President of Watermark, respectfully petition for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit in this
case and to address a significant split among its sister
circuits. This case presents two questions of critical
importance relating to whether state law or federal law
is applied when interpreting a consent decree issued by
a federal court during federal litigation and relating to
a federal question of law.
The first question concerns whether state law
supersedes the long-standing decisions of this Court in
Armor and Blue Chip Stamps. The second question
concerns whether a consent decree calling for
injunctive relief requires express language permitting
assignment and enforcement by a non-party to the
decree. In 2003, U.S. Filter/JWI, Inc. sued Petitioners
for, among other things, trademark infringement
(Gethin I). The litigation was settled by the parties
through an agreed-upon Final Judgment and
Permanent Injunction (“2003 Consent Decree”). The
2003 Consent Decree contained successor and assign
language as related to Watermark and Mr. Gethin, but
not for U.S. Filter/JWI, Inc.
In 2016, Watermark and Mr. Gethin, among others,
were sued by Evoqua on an allegation that Petitioners
had breached the 2003 Consent Decree (Gethin II).
Evoqua alleged that it had standing to enforce the
injunctive provisions of the 2003 Consent Decree in

2
contempt proceedings even though it was not a party to
the 2003 Consent Decree because Evoqua alleged that
it was a successor to U.S. Filter/JWI, Inc. and any
enforcement rights of U.S. Filter/JWI, Inc. were now
Evoqua’s. The Sixth Circuit held that Michigan law
should be applied to determine who can enforce the
2003 Consent Decree, and that because the 2003
Consent Decree was silent as to whether it could be
assigned by the plaintiff, it was freely assignable under
Michigan law.
The Sixth Circuit’s holding is contrary to the
precedents established by Armour and Blue Chip
Stamps, which set forth that a consent decree must be
construed within its four corners and is not enforceable
by those not a party to it. Moreover, the Sixth Circuit’s
view is in conflict with the holdings of at least the
Federal and Seventh Circuits. This Court should grant
certiorari to resolve this conflict and ensure uniform
application of law to a federal consent decree.
OPINIONS BELOW
The Sixth Circuit’s opinion is reported at 940 F.3d
222 and reproduced at App. 1-53, and its order denying
Petitioners’ petition for rehearing en banc is
unreported and reproduced at App. 128-129. The
district court’s order holding that Evoqua did not have
standing to enforce the consent decree is unreported
but available at 2017 WL 4479262 and reproduced at
App. 107-122. The consent decree at issue is
reproduced at App. 123-127.

3
JURISDICTION
The Sixth Circuit issued its opinion on October 7,
2019. That judgment became final on November 21,
2019, when the court denied Watermark and Mr.
Gethin’s petition for rehearing en banc. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
None.
INTRODUCTION AND
STATEMENT OF THE CASE
The core of this dispute turns on whether a consent
judgment, like the 2003 Consent Decree, that contains
injunctive provisions but does not contain language
regarding assignment, is freely assignable under the
state law in which the federal court sits.
A. The 2003 Consent Decree in Gethin I
The 2003 Consent Decree (App. 123-127) entered by
the U.S. District Court Western District of Michigan in
Gethin I identifies “U.S. Filter/JWI, Inc.” as the
plaintiff and contains no language regarding successors
or assigns of plaintiff. Conversely, the 2003 Consent
Decree identifies the Defendants as “J-Parts, L.L.C.,
now known as M.W. Watermark LLC, and Michael
Gethin and its, his or their principals, agents, servants,
employees, attorneys, successors and assigns, and any
person(s) or entities acting or who have acted in concert
or participation with one or more of such persons.” App.
124. The 2003 Consent Decree contains injunctive

4
provisions against Defendants, but contains no
language regarding whether the 2003 Consent Decree
is assignable.
B. Factual Background and District Court
Proceedings in Gethin II
Evoqua and Watermark manufacture and sell
equipment that removes water from industrial waste.
Both companies also sell replacement parts for this
equipment, often referred to as “aftermarket sales.”
The parties to this dispute can trace their origins to
JWI, Inc. (“JWI”), a Michigan company formed in the
late 1970s. Mr. Gethin became employed by JWI in
1989 and eventually held the position of senior
aftermarket sales representative. JWI was acquired by
U.S. Filter Corporation in 1997 and then operated as
U.S. Filter/JWI Inc. (“U.S. Filter/JWI”).
Mr. Gethin continued his employment with U.S.
Filter/JWI until July 10, 2003, when he left to form his
own business to sell replacement parts for filter presses
manufactured by a variety of companies, including
JWI. He called his new business J-Parts LLC. On
August 29, 2003, U.S. Filter/JWI filed suit against JParts LLC and Mr. Gethin in the U.S. District Court
for the Western District of Michigan for false
designation of origin, trademark dilution, trademark
infringement, unfair competition, unjust enrichment,
misappropriation of trade secrets, breach of fiduciary
duties, breach of contract, and conversion. This is the
case referred to herein as Gethin I.

5
Gethin I was resolved by the parties before the end
of 2003, in which J-Parts changed its name to “M.W.
Watermark LLC,” changed its 1-800 phone number,
abandoned a website address, and paid $4,000. As part
of the settlement agreement, the parties also agreed to
stipulate to the entry of a final judgment. On
December 22, 2003, the district court entered the
“Final Judgment Including Permanent Injunction” that
is referred to herein as the “2003 Consent Decree.”
App. 123-127. The injunction permanently enjoined
“M.W. Watermark LLC, and Michael Gethin and its,
his or their principals, agents, servants, employees,
attorneys, successors and assigns” from using U.S.
Filter/JWI’s trademarks and from “using, disclosing, or
disseminating any” of U.S. Filter/JWI’s proprietary
information.” App. 124. No “successors and assigns”
language modified “U.S. Filter/JWI” in the 2003
Consent Decree. App. 124.
U.S. Filter/JWI was merged into Siemens Industry,
Inc. (“Siemens”) through a series of mergers that began
in 2006. In 2013, Siemens sold certain assets to a
private equity company called AEA Investors via a
“Carve-Out Agreement” that purportedly included the
former U.S. Filter/JWI business. Those assets were
transferred to AEA via a newly-incorporated company
initially called Siemens Water Technologies LLC
(“SWT”), which later changed its name to Evoqua
Water Technologies LLC in 2014 and began operations.

6
Watermark, now over ten years old and a thriving
business with more than fifty employees, many of
which formerly worked for JWI and/or U.S. Filter/JWI,
announced its plan to enter into markets that Evoqua
had exited. This apparently did not sit well with
Evoqua. In July 2015, Evoqua’s in-house counsel wrote
to Watermark regarding, among other things, Evoqua’s
concerns that Watermark was violating the 2003
Consent Decree. Mr. Gethin exchanged correspondence
with Evoqua’s in-house counsel, and assumed the
matter was resolved by early August 2015. Such was
not the case.
On January 8, 2016, Evoqua filed its action against
Watermark, Mr. Gethin, and some employees of
Watermark. Evoqua alleged that Watermark and its
employees violated the 2003 Consent Decree by using
Evoqua’s proprietary information and infringing on its
trademarks by using Evoqua’s J-MATE® trademark on
its website and a similar name of “DryMate” for its own
product. Evoqua further alleged that Watermark and
other defendants infringed on its copyrights by
adopting Evoqua’s copyrighted brochures and
presentations for its own use. Evoqua finally alleged
that Watermark falsely advertised itself as an original
equipment manufacturer of replacement parts for
Evoqua’s products.
By March 2016, Evoqua filed a motion for an order
holding Watermark and Mr. Gethin in contempt of
court for violating the 2003 Consent Decree. On
September 12, 2016, the district court granted
Evoqua’s motion and entered an order holding
Watermark and Mr. Gethin in contempt for violating

7
the 2003 Consent Decree. The district court found that
Watermark violated the injunction by (1) using
Evoqua’s proprietary information and (2) using
Evoqua’s trademarks on its website, and ordered
Watermark and Mr. Gethin to pay sanctions to Evoqua
in the amount of Evoqua’s attorney’s fees. Before the
attorney’s fees award was issued, Gethin II was
reassigned to another judge following retirement of the
original presiding judge.
In April 2017, with the attorney’s fees motion still
pending, Watermark and Mr. Gethin moved for an
order dissolving or modifying the 2003 Consent Decree,
arguing that its requirements had either been satisfied
or had become unworkable. Contemporaneously,
Evoqua asked the district court to find that it was a
successor-in-interest to U.S. Filter/JWI. At the hearing
on these issues, the district court raised the question of
whether the 2003 Consent Decree could even be
enforced by a successor to U.S. Filter/JWI and asked
for briefing. Following submission of the parties’ briefs,
the district court issued its opinion and order vacating
the prior contempt order and dismissing Evoqua’s
claim for contempt. App. 107-122. The district court
held that Evoqua did not have standing to seek
enforcement of the 2003 Consent Decree because “[t]he
consent judgment in this case does not provide for
enforcement by an assignee of U.S. Filter.” App. 112.
That is, the district court did not reach the question of
whether the 2003 Consent Decree was assigned to
Evoqua, but found it was not assignable.

8
The district court granted summary judgment to
Watermark and Mr. Gethin on Evoqua’s copyright
claim in March 2018. App. 88-104. A jury trial was held
on the remaining claims of trademark infringement and
false advertising, and the jury found that Watermark
infringed Evoqua’s trademarks, but the damages were
zero, and found for Watermark and Mr. Gethin on the
false advertising claim. App. 82-87. Final judgment was
entered on November 5, 2018. App. 54-81.
C. Sixth Circuit Appellate Proceedings
Evoqua appealed, inter alia, the district court’s
order vacating the contempt order and dismissing
Evoqua’s contempt claim under the 2003 Consent
Decree because the district court found that the 2003
Consent Decree is not assignable or transferrable.
App. 10. The Sixth Circuit concluded that the 2003
Consent Decree is freely assignable because consent
judgments are contracts, and contracts are freely
assignable under Michigan state law unless
assignment is clearly restricted. App. 12. The Sixth
Circuit has remanded this case to the district court for
a determination of whether the 2003 Consent Decree
was actually assigned to Evoqua and also remanded
the issue of whether (and which) copyrights were
assigned from Siemens to Evoqua. App. 15, 24. The
Sixth Circuit also found that the district court did not
abuse its discretion in denying attorneys’ fees to
defendants. App. 27.
The Sixth Circuit correctly recognized that a
consent decree “is not enforceable directly or in
collateral proceedings by those who are not parties to
it.” Blue Chip Stamps, 421 U.S. at 750. App. 11. The

9
majority cited its own prior decision in Aiken v. City of
Memphis, 37 F.3d 1155, 1168 (6th Cir. 1994) that “even
intended third-party beneficiaries of a consent decree
lack standing to enforce its terms.” App. 11. Yet, in the
next sentence, even in light of this Court’s “federal law”
and its own prior case, the Sixth Circuit went on to
state:
In the absence of controlling federal law,
contractual interpretation of the Consent
Decree is governed by Michigan law. See
Sault St. Marie, 146 F.3d at 372. Under
Michigan law, “[t]he primary goal in the
construction or interpretation of any contract is
to honor the intent of the parties.” Rasheed v.
Chrysler Corp., 517 N.W.2d 19, 29 n.28 (Mich.
1994). A court “must look for the intent of the
parties in the words used in the instrument.”
Mich. Chandelier Co. v. Morse, 297 N.W. 64, 67
(Mich. 1941).
App. 11 (emphasis added). The Sixth Circuit then cited
to a common law case from Michigan state law to
conclude that the 2003 Consent Decree was assignable
to Evoqua:
Under Michigan contract law, “rights can be
assigned unless the assignment is clearly
restricted.” Jawad A. Shah, M.D., PC v. State
Farm Mut. Auto. Ins. Co., 920 N.W.2d 148, 158
(Mich. Ct. App. 2018) (internal quotation marks
omitted). The Consent Decree is silent on the
question of assignability—neither allowing it nor
barring it. Due to the absence of a “clear

10
restrict[ion],” the Consent
assignable to Evoqua.

Decree

was

App. 12.
The district court had relied on the Federal Circuit
case of Thatcher v. Kohl’s Department Stores, Inc., 377
F.3d 1370, 1372 (Fed. Cir. 2005) (applying Seventh
Circuit law), which held that a consent judgment
including “successors and assigns” language with
respect to the defendant, but not with respect to the
plaintiff, meant that the consent judgment was not
assignable. Thatcher, 377 F.3d 1372-1373.
The Sixth Circuit majority opinion noted that the
district court “found this case similar to Thatcher”, and
had “interpreted the absence of any reference to U.S.
Filter/JWI’s successors and assigns, coupled with the
language binding Watermark’s successors and assigns,
as preventing assignment of the Consent Judgment.”
App. 13. However, the Sixth Circuit specifically
rejected that reasoning and came to an opposite
conclusion, holding that the 2003 Consent Decree was
freely assignable. App. 13.
Sixth Circuit Judge John K. Bush wrote a lengthy
concurring opinion “to address one discrete issue where
I believe our precedents are wrong: specifically, the
jurisdictional source of the law governing
interpretation of a consent decree entered by a federal
court.” App. 27. Judge Bush concluded his concurrence
noting that:
This is a case whose outcome in part hinges on
whether state law or federal law applies. And
although I would have applied federal law to

11
resolve it, as that is the appropriate source of
law to supply the rule of decision for this case,
our precedent requires us to apply state contract
law. Thus, I respectfully concur and further note
that it may be prudent for the full court to
revisit this issue.
App. 52-53 (Bush, J., concurring).
This case clearly establishes the current conflict
between the Sixth Circuit and this Court’s prior
holdings related to construction of a consent decree.
Resolving the question in Watermark and Mr. Gethin’s
favor would end the litigation related to the 2003
Consent Decree. Further, the questions presented will
not benefit from further consideration at the Sixth
Circuit, as that court has declined to take the questions
presented en banc, despite Judge Bush’s well-reasoned
concurrence. App. 128-129.
REASONS FOR GRANTING THE PETITION
I. The Sixth Circuit’s holding conflicts with this
Court’s precedents
The decision below warrants review because it
conflicts with decades of precedent from this Court
holding that a consent decree must be construed within
its four corners and cannot be enforced by those who
are not parties to it, even if they are an intended
beneficiary.

12
Consent judgments entered by federal courts sit at
the crossroads between federal law and the common
law of contract.1 This Court has recognized the dual
nature of these documents. “Since a consent decree or
order is to be construed for enforcement purposes
basically as a contract, reliance upon certain aids to
construction is proper, as with any other contract.”
U.S. v. ITT Continental Baking Co., 420 U.S. 223, 238
(1975). However, while this Court has said that consent
judgments can be construed basically as a contract, it
has not said that consent judgments issued by federal
courts are contracts that are governed by the state law
in which the federal district court sits. It is here where
the Sixth Circuit opinion went far beyond this Court’s
precedent.
This Court has long held that consent judgments
are not simple contracts. U.S. v. Swift & Co., 286 U.S.
106, 115 (1932) (“We reject the argument for the
interveners that a decree entered upon consent is to be

1

Courts have differed in how to even refer to consent decrees or
consent judgments. See, e.g., FTC v. Enforma Natural Prods., Inc.,
362 F.3d 1204, 1218 (9th Cir. 2004) (“[A] consent decree is ‘no more
than a settlement that contains an injunction.’” (quoting In re
Masters Mates & Pilots Pension Plan & IRAP Litig., 957 F.2d 1020,
1025 (2d Cir. 1992))); Gates v. Shinn, 98 F.3d 463, 468 (9th Cir.
1996) (“[W]hen a decree commands or prohibits conduct, it is called
an injunction.”). When the settlement involves no injunctive relief
but simply the payment of money, the often-used term is “consent
judgment.” See Limbright v. Hofmeister, 566 F.3d 672, 673 (6th
Cir. 2009) (term “consent judgment” used where monetary
obligations are involved). Watermark and Mr. Gethin use these
terms interchangeably (as did the district court), because the
consent judgment or decree in this case includes injunctive relief
and is not a simple money judgment.

13
treated as a contract and not as a judicial act”). See
also, Buckhannon Bd. & Care Home, Inc. v. W. Va.
Dep’t of Health & Human Res., 532 U.S. 598, 604 n.7
(2001) (“Private settlements do not entail the judicial
approval and oversight involved in consent decrees.”).
Indeed, many of the consent judgments discussed in
this Court’s prior decisions involve decrees entered into
with the United States as a party. See, e.g., Buckeye Co.
v. Hocking Valley Ry. Co., 269 U.S. 42 (1925), U.S. v.
Armour & Co., 402 U.S. 673 (1971), Blue Chip Stamps
v. Manor Drug Stores, 421 U.S. 723 (1975), and U.S. v.
ITT Continental Baking Co., 420 U.S. 223 (1975). These
cases often involve nationwide federal issues, such as
antitrust and federal agency consent decree
interpretation, making the application of a particular
state’s law wholly inappropriate.
The Article III powers of a federal court also extend
to private disputes between citizens from different
states and upon subject matter having federal
jurisdiction, such as the intellectual property-related
issues in this case. U.S. Constitution, Article III. See,
e.g., 28 U.S.C. § 1338. These disputes are also
commonly settled with private settlement agreements
and, in some cases, with the entry of a consent
judgment, such as in this case (and undoubtedly in
numerous others). As Judge Bush’s concurring opinion
establishes, “[u]nlike a settlement agreement, a
consent decree entered in federal district court draws
upon the Article III power, and the decree invokes the
court’s continuing jurisdiction to ensure compliance
with its order until the parties have fulfilled their
obligations.” App. 29-30, citing Williams v. Vukovich,

14
720 F.2d 909, 920 (6th Cir. 1983); see also Bergman v.
Mich. State Transp. Comm’n, 665 F.3d 681, 683–84
(6th Cir. 2011).”
Permitting a federal district court to apply the state
law of the state in which it sits instead of federal law
leads to inconsistent results in the interpretation and
enforcement of federal consent judgments. The split in
the Circuits on this issue leads to different standards
as to who has standing to enforce consent decrees. See,
§ II below.
A. The Sixth Circuit ignored this Court’s
precedent when it held there is an absence
of controlling federal law
The Sixth Circuit found that there was an “absence
of controlling federal law” which thereby dictated it
look to Michigan common law to determine who had
standing to enforce the 2003 Consent Decree in this
case. App. 11, citing Sault St. Marie v. Engler, 146 F.3d
367, 372 (6th Cir. 1998). Consequently, it turned to a
number of Michigan contract cases to interpret the
federally-issued 2003 Consent Decree. App. 11, citing
Rasheed v. Chrysler Corp., 517 N.W.2d 19, 29 n.28
(Mich. 1994) (“[t]he primary goal in the construction or
interpretation of any contract is to honor the intent of
the parties.”), Mich. Chandelier Co. v. Morse, 297 N.W.
64, 67 (Mich. 1941) (a court “must look for the intent of
the parties in the words used in the instrument.”).
Finding that the 2003 Consent Decree was silent as to
assignability, the Sixth Circuit held that it was
assignable to Evoqua and remanded for the district
court to determine whether the 2003 Consent Decree
was actually assigned. App. 12.

15
Under Michigan contract law, ‘rights can be
assigned unless the assignment is clearly
restricted.’ Jawad A. Shah, M.D., PC v. State
Farm Mut. Auto. Ins. Co., 920 N.W.2d 148, 158
(Mich. Ct. App. 2018) (internal quotation marks
omitted). The Consent Decree is silent on the
question of assignability—neither allowing it nor
barring it. Due to the absence of a “clear
restrict[ion],” the Consent Decree was
assignable to Evoqua.”
App. 12.
A core question in this dispute is whether there is,
indeed an “absence of controlling federal law” as
asserted by the majority while it contemporaneously
cites to two cases from this Court which are directly on
point: Blue Chip Stamps and Armour. App. 12. In Blue
Chip Stamps, the Court held that “a well settled line of
authority from this Court establishes that a consent
decree is not enforceable directly or in collateral
proceedings by those who are not parties to it, even
though they were intended to be benefited by it.” Blue
Chip Stamps, 421 U.S. 723, citing Armour, 402 U.S.
673; Buckeye Co., 269 U.S. 42. The Sixth Circuit also
cited its own decision in Aiken, which held that “even
intended third-party beneficiaries of a consent decree
lack standing to enforce its terms.” Aiken v. City of
Memphis, 37 F.3d 1155, 1168 (6th Cir. 1994).
Sandwiched around its statement that there is an
“absence of controlling federal law,” the Sixth Circuit
also makes reference to Armour, finding it to be of
“particular relevance here.” App. 11. In Armour, the
Court found that prohibitions of the consent decree at

16
issue ran “only against the named stockholders [of
Armour] and not against their successors and assigns.”
Armour, 402 U.S. at 680. The Armour Court further
noted that the presence (or absence) of successors and
assigns can be critical to the interpretation of a consent
decree.
If a “successors and assigns” clause had been
included, the Government could argue with
some persuasiveness that ownership of a
meatpacker by a controlling interest in a retail
food firm was prohibited. And the parties were
able to use the words ‘successors and assigns’
when they wanted to.
Armour, 402 U.S. at 680.
The question of whether federal law should apply
becomes critical in light of the Sixth Circuit’s decision
to turn to Michigan state contract law to determine the
effect of “silence” of the 2003 Consent Decree on the
issue of assignability and its stated “absence of
controlling federal law.” App. 13. Contrary to the
holdings of both Armour and Blue Chip Stamps, the
Sixth Circuit applied Michigan law and found that the
absence of language restricting assignability meant
that the 2003 Consent Decree was freely assignable,
despite the presence of “successors and assigns”
language in the 2003 Consent Decree with respect to
only the Defendants named therein. App. 13
(“Michigan law allows for the assignment of a contract
unless clearly restricted,” citing Shah, M.D., PC, 920
N.W.2d at 158).

17
B. Armour and Blue Chip Stamps are
controlling federal law ignored by the
Sixth Circuit
This Court’s decision in Armour deals with this
exact issue: “the scope of a consent decree must be
discerned within its four corners, and not by reference
to what might satisfy the purposes of one of the parties
to it” and “the instrument must be construed as it is
written.” Armour, 402 U.S. at 682. This Court provided
a specific example of what this means when it held that
the presence of successors and assigns language in one
part of a consent decree and not in another part of the
same document is meaningful and honoring the intent
of the parties need go no further. Armour, 402 U.S. at
680 (“And the parties were able to use the words
‘successors and assigns’ when they wanted to.”).
This Court has referred to this “four corners”
holding in other cases as the “Armour rule.” See. e.g.,
U.S. v. ITT Continental Baking Co., 420 U.S. 223:
Since a consent decree or order is to be
construed for enforcement purposes basically as
a contract, reliance upon certain aids to
construction is proper, as with any other
contract. Such aids include the circumstances
surrounding the formation of the consent order,
any technical meaning words used may have
had to the parties, and any other documents
expressly incorporated in the decree. Such
reliance does not in any way depart from
the ‘four corners’ rule of Armour.

18
Id. (emphasis added). The dissenting opinion in U.S. v.
ITT advocated for a strict reading of the Armour rule
and expressed concern that the Armour rule was being
relaxed.
The Court today thus indulges in precisely the
exercise that Armour sought to preclude: a wideranging search for a ‘purpose’ in a decree that,
as explained in Armour, cannot be said to have
a purpose except to delineate explicitly the
terms and provisions of the settlement that the
parties negotiated.”).
ITT Continental Baking Co., 420 U.S. at 940 (Stewart,
J., dissenting).
The concerns raised in the ITT dissenting opinion
have come to pass for the Sixth Circuit has held that
silence as to assignability in a consent decree can be
interpreted beyond the “four corners” rule of Armour to
the state common law in which the federal district
court sits. “This is a case whose outcome in part hinges
on whether state law or federal law applies.” App. 52.
This Court should clarify whether Armour and Blue
Chip Stamps are “controlling federal law” and that
there is no “absence” of controlling federal law as the
Sixth Circuit has now held.
II. There is a split in the circuits
The Sixth Circuit’s opinion in this case uncovered a
significant split in the circuits regarding the source of
law used to determine enforcement of consent decrees.
Indeed, the district court relied on a Federal Circuit
case applying Seventh Circuit law that was directly on
point, but the district court was overruled by the Sixth

19
Circuit in applying Michigan state law to interpret the
2003 Consent Decree in this case. Other circuits have
adopted even more variable approaches which result in
unpredictability when parties resolve litigation with a
consent judgment.
The holdings established by the “Armour rule” and
in Blue Chip Stamps provide clear guidance as to the
limits imposed on federal courts in interpreting and
permitting enforcement of consent decrees by parties
who are not identified by name in the consent decree.
However, circuit courts have whittled away at Armour
and Blue Chip Stamps to create a vast discrepancy as
to the parties that can enforce a consent decree.
Armour says that “the scope of a consent decree
must be discerned within its four corners, and not by
reference to what might satisfy the purposes of one of
the parties to it.” Armour, at 682 (emphasis added).
Blue Chip Stamps held that “a well settled line of
authority from this Court establishes that a consent
decree is not enforceable directly or in collateral
proceedings by those who are not parties to it, even
though they were intended to be benefited by it.” Blue
Chip Stamps, 421 U.S. at 750 (1975), citing, Armour,
402 U.S. 673 (1971), and Buckeye Co. v. Hocking Valley
Co., 269 U.S. 42 (1925).
This guidance is clear: read the express terms of the
consent decree at issue without regard to the purposes
of one of the parties to it (Armour) and limit the
enforcement to the express parties to the consent
decree, without permitting enforcement by third
parties, following Blue Chip Stamps (like successors or
assigns, unless expressly stated within the consent

20
decree’s four corners). However, the consistency with
which the circuits have followed this guidance is not
consistent.
A. The Federal Circuit follows the Armour
rule and Blue Chip Stamps and has held
that the absence of language of
“assignment” meant that a consent decree
was not freely assignable
The Federal Circuit complied with this Court’s
guidance in Thatcher v. Kohl’s Department Stores, Inc.,
397 F.3d 1370, 1372 (Fed. Cir. 2005). In Thatcher, a
consent decree enjoined Kohl’s Department Stores, and
its successors-in-interest, from infringing on an
individual’s patent rights. Thatcher, 397 F.3d at 1372.
While the consent decree explicitly mentioned
“successors and assigns” as modifying Kohl’s, there was
no corresponding successorship language modifying the
plaintiff, Mr. Thatcher. Id. Therefore, there was no
express extension of an enforcement right to anyone
other than Mr. Thatcher. Id. Mr. Thatcher later
assigned his patent rights to a third party, Deckers
Outdoor Corporation, and Deckers sued Kohl’s to
enforce the consent judgment. Id. at 1372-73. The
Federal Circuit followed Armour and rejected Decker’s
argument that the absence of an anti-assignment
clause meant that the consent judgment was freely
assignable. Id. at 1374.
The Federal Circuit held that Armour “promotes the
underlying policy that consent judgments must be
construed in a manner that preserves the position for
which the parties bargained” and (2) stated that
“Armour makes clear that ... [consent decrees] are

21
fundamentally different from contracts in not only
reflecting an agreement on terms but also a resolution
and compromise of contested legal positions in matters
that are the subject of litigation.” Id. Specifically, the
Federal Circuit found that the Thatcher consent
decree’s silence on extending the right of enforcement
to third parties was “the functional equivalent of the
parties’ express intent to exclude language of
assignment.” Id. at 1375. Therefore, in the Federal
Circuit, explicit language regarding assignment of a
consent decree must be present in order for a non-party
to enforce a consent decree.
B. The Sixth Circuit followed Michigan
contract law and found that the absence of
language of “assignment” meant that a
consent decree was freely assignable
In this case, and in a compellingly similar fact
pattern to the Federal Circuit’s Thatcher case, the
Sixth Circuit reached the exact opposite result. Like
Thatcher, the 2003 Consent Decree in this case
expressly modified the identification of the enjoined
Defendants with “successors and assigns” language,
but had no similarly modifying language with respect
to the Plaintiff, U.S. Filter/JWI. Evoqua, asserting the
2003 Consent Decree in litigation filed thirteen years
later, is not a party to the 2003 Consent Decree and is,
at best, an alleged assignee of it through a series of
corporate mergers and an asset sale.
The Sixth Circuit expressly rejected the reasoning
of the Federal Circuit in the Thatcher case, finding that
the absence of modifying successorship language in the
2003 Consent Decree with respect to U.S. Filter/JWI

22
was “mere silence” on the issue of assignability of it.
App. 13. The Sixth Circuit characterized the Armor
rule as follows:
Moreover, we do not read Armour to require
explicit language allowing for assignment.
Armour’s statement that the interpretation of a
consent decree must preserve the parties’
bargained-for terms does not suggest that an
assignment clause is needed. Armour’s
statement simply mirrors the general contractinterpretation command to “honor the intent of
the parties,” Rasheed, 517 N.W.2d at 29 n.28, by
looking to “the words used in the instrument,”
Mich. Chandelier Co., 297 N.W. at 67. Nor does
Armour suggest that the judicial nature of the
Consent Judgment requires an explicit
assignment clause in this circumstance.
App. 14. The Sixth Circuit went on to hold that
“[b]ecause the Consent Judgment does not contain an
anti-assignment clause or some other clear prohibition
on assignment, the Consent Judgment could be
assigned. The district court erred by concluding to the
contrary.” Id.
The Sixth Circuit made no attempt to reconcile this
holding in the Majority Opinion with Blue Chip
Stamps’ prohibition on enforcement of consent decrees
by those who are “not parties to it.” This was noted in
the Concurring Opinion:
Lastly—and this is a point particularly
important to this case—there is “well-settled
line of authority from [the] Court establish[ing]

23
that a consent decree is not enforceable directly
or in collateral proceedings by those who are not
parties to it even though they were intended to
be benefited by it.” Blue Chip Stamps, 421 U.S.
at 750 (citing Armour, 402 U.S. at 673; Buckeye
Coal & Ry. Co. v. Hocking Valley Ry. Co., 269
U.S. 42 (1925)). The corollary to this rule of
federal law is that a federal consent decree may
only be enforced by the parties who are explicitly
identified or described in the decree. Cf. id.; see
also Armour, 402 U.S. at 673.
App. 34.
Contrary to the Federal Circuit, the Sixth Circuit
held that a consent decree is freely assignable when it
is silent as to assignability. The Sixth Circuit has also
previously (and now inconsistently) held that the terms
of a consent decree were not binding on a party who
purchased a facility that was bound by a consent decree
when it was previously owned by General Motors.
Huguley v. General Motors Corp., 67 F.3d 129 (1995)
(“We believe a fair reading of the decree precludes the
imposition of successor liability on Allison.”), citing
Armour, 402 U.S. at 681-82. The split is clear, even
within the Sixth Circuit’s own prior decisions, and it is
irreconcilable, and it completely ignores this Court’s
precedent in Blue Chip Stamps.

24
C. The Ninth Circuit Created an “exception”
to Blue Chip Stamps permitting
enforcement by “intended” but not
“incidental” third-party beneficiaries
The problematic split among the circuits does not
stop with just the Sixth Circuit and the Federal
Circuit. The Ninth Circuit has expressly disavowed
part of the Blue Chip Stamps holding by this Court.
U.S. v. FMC Corp., 531 F.3d 813 (9th. Cir. 2008),
involved an enforcement proceeding by certain Native
American tribes as to whether they, who were
identified as annual payment recipients in an earlier
consent decree between the United States and FMC
relating to certain federal and tribal environmental
laws but were not identified as a party to a consent
decree, had standing to enforce the consent decree as a
third-party beneficiary (see United States v.
Shoshone–Bannock Tribes (FMC Corp.), 229 F.3d 1161
(9th Cir. 2000) (unpublished disposition)).
U.S. v. FMC’s analysis deals in great part with
whether the tribes at issue were “intended” or
“incidental” third-party beneficiaries of the consent
decree at issue. This analysis is contrary to Blue Chip
Stamps’ clear prohibition against enforcement by nonparties, and the Ninth Circuit unabashedly addresses
this issue head on. Citing the “well-settled authority”
language from Blue Chip Stamps, the Ninth Circuit
affirms that it has “carved out an exception to that
sweeping and clear statement by the Supreme Court”
by finding that non-party inmates “nevertheless could
enforce the consent decree as intended third-party

25
beneficiaries.” Hook v. Ariz. Dep’t of Corr., 972 F.2d
1012, 1013-15 (9th Cir. 1992) (emphasis added).
The Ninth Circuit in Hook “acknowledged that the
Supreme Court's rule in Blue Chip Stamps was broad,
but we limited its reach” and stated that it interpreted
Blue Chip Stamps as allowing enforcement by intended
third party beneficiaries but not incidental third-party
beneficiaries. FMC, 531 F.3d at 819-820, citing, Hook,
972 F.2d at 1015 (“[A] more thorough analysis reveals
that the standing rule from Blue Chip Stamps
prohibits only incidental third party beneficiaries from
suing to enforce a consent decree.”) (emphasis in
original).
The Ninth Circuit acknowledged a split in the
circuits in FMC, noting “[i]n short, under Ninth Circuit
precedent, incidental third-party beneficiaries may not
enforce consent decrees, but intended third-party
beneficiaries may. Most other circuits are in accord
with our restrictive reading of the Supreme Court's
statement in Blue Chip Stamps.” FMC, 531 F.3d at
820 (emphasis in original). The Ninth Circuit cited
several cases in support of its interpretation. Id., citing,
Pure Country, Inc. v. Sigma Chi Fraternity, 312 F.3d
952, 958 (8th Cir. 2002) (“In order for a third party to
be able to enforce a consent decree, the third party
must, at a minimum, show that the parties to the
consent decree not only intended to confer a benefit
upon that third party, but also intended to give that
third party a legally binding and enforceable right to
that benefit. This standard applies whether or not the
government is a party to the consent decree.” (citation
omitted)); Floyd v. Ortiz, 300 F.3d 1223, 1226 (10th Cir.

26
2002) (identifying the circuit split and following,
without analysis, the majority position that “intended
third-party beneficiaries of consent decrees have
standing to enforce those decrees”); Beckett v. Air Line
Pilots Ass’n, 995 F.2d 280, 286 (D.C. Cir. 1993)
(following Hook); Berger v. Heckler, 771 F.2d 1556,
1565 (2d Cir. 1985) (“Although there is substantial
authority for the proposition [stated in Blue Chip
Stamps], we think that this authority was not intended
to preclude nonparties from intervening to enforce a
consent decree where otherwise authorized by the
federal rules of civil procedure.”).
The Ninth Circuit, in FMC, noted that the Sixth
Circuit, at that time, disagreed with its analysis, citing
Aiken v. City of Memphis, 37 F.3d 1155, 1168 (6th Cir.
1994) (en banc) (“The plain language of Blue Chip
indicates that even intended third-party beneficiaries
of a consent decree lack standing to enforce its terms.
Although other circuits have held to the contrary, we
are unable to join them until the Supreme Court
revisits the unequivocal language of Blue Chip.”
(citations omitted) (emphasis in original)).
Undoubtedly, even the Ninth Circuit would likely find
the swing by the Sixth Circuit from rigidly waiting for
this Court to revisit the Blue Chip Stamps decision to
now ignoring Blue Chip Stamps to be an interesting
reversal.

27
CONCLUSION
For the foregoing reasons, Petitioners respectfully
request that its petition for writ of certiorari be granted
to correct the panel majority’s error and to address a
significant split among its sister Circuits as to the
issues addressed herein.
Respectfully submitted,
G. Thomas Williams
Counsel of Record
McGarry Bair PC
45 Ottawa Ave. SW, Suite 700
Grand Rapids, MI 49503
Tel: 616-742-3500
Fax: 616-742-1010
gtw@mcgarrybair.com
Counsel for Petitioners
Date: February 19, 2020

